                       U.S. Environmental Protection Agency                                                    09-P-0188
                                                                                                            June 30, 2009
                       Office of Inspector General


                       At a Glance
                                                                              Catalyst for Improving the Environment


Why We Did This Review            Results of Technical Network Vulnerability
The Office of Inspector
                                  Assessment: EPA’s Potomac Yard Buildings
General contracted with
Williams, Adley & Company,         What Williams, Adley & Company, LLP, Found
LLP, to conduct the annual
audit of the U.S.                 Vulnerability testing of EPA’s Potomac Yard buildings network conducted during
Environmental Protection          April 2009 indicated several high-risk vulnerabilities. If not resolved, these
Agency’s (EPA’s) compliance       vulnerabilities could expose EPA’s assets to unauthorized access and potential
with the Federal Information      harm to the Agency’s network.
Security Management Act
(FISMA). Williams, Adley &         What Williams, Adley & Company, LLP, Recommends
Company, LLP, conducted the
network vulnerability testing     There are four EPA offices involved with the Potomac Yard buildings: Office of
of the Agency’s network           Solid Waste and Emergency Response; Office of Prevention, Pesticides, and
located at EPA’s Potomac          Toxic Substances; Office of Environmental Information; and Office of Research
Yard buildings in Arlington,      and Development. Williams, Adley & Company, LLP, recommends that the
Virginia.                         Acting Director, Office of Technology Operations and Planning, and the Senior
                                  Information Officials for these offices:
Background
                                  •   Implement actions to resolve all high-risk vulnerability findings.
The network vulnerability         •   Update EPA’s Automated Security Self Evaluation and Remediation
testing was conducted to              Tracking (ASSERT) system.
identify any network risk         •   Perform a technical vulnerability assessment within 30 days to demonstrate
vulnerabilities and present the       and document corrective actions have resolved the vulnerabilities.
results to the appropriate
EPA officials to promptly         Due to the sensitive nature of the report’s technical findings, the full report is not
remediate or document             available to the public.
planned actions to resolve the
vulnerability.



For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.
